        INDUSTRIAL PRIME VENDOR PROGRAM AT THE
          NAVAL AVIATION DEPOT - NORTH ISLAND



Report No. D-2001-072               March 5, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
  604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or FAX (703) 604-8932.
  Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms
DLA                   Defense Logistics Agency
DSCP                  Defense Supply Center Philadelphia
DSCR                  Defense Supply Center Richmond
DVD                   Direct Vendor Delivery
EA                    Each
FAR                   Federal Acquisition Regulation
HD                    Hundred
IPV                   Industrial Prime Vendor
MAUC                  Mean Acquisition Unit Cost
NADEP                 Naval Aviation Depot
NSN                   National Stock Number
SUP                   Standard Unit Price
                         Office of the Inspector General, DoD
Report No. D-2001-072                                                      March 5, 2001
   (Project No. D1999CF-0104)


                      Industrial Prime Vendor Program at the
                        Naval Aviation Depot − North Island

                                 Executive Summary

Introduction. This report is one in a series involving the pricing of commercial and
noncommercial spare parts and other logistics support initiatives. This report addresses
bench-stock material (screws, bolts, rivets, etc.) and logistics support procured from
Raytheon E-Systems Incorporated under the industrial prime vendor program to support
the Naval Aviation Depot, North Island, California. Additional audits will address the
industrial prime vendor program at the Naval Aviation Depot, Cherry Point, North
Carolina and the Air Force Air Logistics Centers. The Defense Supply Center
Philadelphia initiated the industrial prime vendor program in July 1998 as a test or
demonstration program to explore innovative logistics solutions for providing spare parts
used in maintenance, repair and overhaul facilities. The conceptual goal of the industrial
prime vendor program was to improve logistics support to the service depot maintenance
facilities at a lower cost by streamlining the logistics pipeline. The industrial prime
vendor program is a customer oriented supply chain management initiative that turns
complete responsibility of bench-stock material over to a third-party vendor. The
primary customers covered under the demonstration program are Navy depots and Air
Force logistics centers. FY 2001 budget figures show overall bench-stock sales at about
$284 million, which includes the industrial prime vendor bench-stock sales at about
$38 million.

The Defense Supply Center Philadelphia awarded industrial prime vendor contract
(SP0500-98-D-BP01) to Raytheon on July 8, 1998 to support North Island. The contract
has an estimated material value of $4 million annually with approximately $750,000 in
annual distribution costs. For the last 6 months of CY 1999 when the program was fully
operational, program sales totaled $739,309. Raytheon is responsible for purchasing
bench stock and maintaining the stock bins. Raytheon uses direct vendor delivery
contracts with a core team of subcontractors to obtain the material.

Objective. The primary audit objective was to determine whether the Defense Supply
Center Philadelphia industrial prime vendor program had demonstrated an effective shift
to commercial, industrial-base resources as an integrated logistics solution to obtain
bench-stock material and add value for its customers.

Results. The Defense Supply Center Philadelphia industrial prime vendor program at
North Island had not demonstrated an effective shift to commercial, industrial-base
resources as an integrated logistics solution. The program had not reduced total logistics
costs, improved financial accountability, streamlined the Defense infrastructure, or added
value to the Defense supply system. In addition, other areas such as benefits from
competition and participation by small businesses needed to be fully addressed. We
calculated that the industrial prime vendor program cost an additional $287,852 to
operate for the last 6 months of CY 1999, when the program was fully operational. We
also determined that because of unit of issue problems when placing items on contract,
North Island was over-billed by $572,302 from contract inception to March 2000. Total
program sales (corrected) during the period were about $1.6 million. In August 2000,
Raytheon provided North Island a check for $368,375 to partially cover the over-billed
amount. In addition, 64 percent (dollars) and 82 percent (line items) of the material
supplied on the contract came from the Defense supply system. For details of the audit
results, see the Finding section of the report.

Summary of Recommendations. We recommend that the Commander Defense Supply
Center Philadelphia review actual parts usage and correct pricing errors before items are
placed on contract. The supply center should also use appropriate cost recovery rates to
place items on contract and for program evaluation purposes and establish metrics to
compare prices. The supply center should refund North Island the total amount over-
billed. The supply center should establish program metrics for bench-stock material that
set goals and closely monitors the number of transactions supplied from the depot system
and industry, establish milestones to attain the metrics, and if unable to achieve the
established metrics, discontinue the program. The supply center should also develop a
plan, establish metrics, and demonstrate how the bulk of its customers will be supported.
The supply center should also monitor the program impact on competition and small
business. We recommend that the Director, Defense Logistics Agency evaluate program
metrics and milestones and determine whether program goals can be attained and whether
the program should be continued.

Management Comments. The Defense Supply Center agreed to review actual parts
usage and correct pricing errors before items were place on contract. The supply center
agreed to use appropriate cost recovery rates to place items on contract and for program
evaluation purposes and to establish metrics to compare prices. The supply center agreed
to refund North Island the total amount over-billed. The supply center agreed to develop
a plan and establish program metrics for bench-stock material that set appropriate goals
and to closely monitor the number of transactions supplied from the depot system, and
industry. The supply center agreed to develop a plan, metrics, and demonstrate how the
bulk of its customers would be supported. The supply center also agreed to monitor the
program impact on competition and small business. The Defense Logistics Agency
agreed to evaluate program metrics and milestones within the next 12 months and
determine whether program goals can be attained and whether the program should be
continued. See the Management Comments section for the complete text of management
comments.




                                            ii
Table of Contents

Executive Summary                                               i


Introduction
     Background                                                1
     Objective                                                 2

Finding
     Industrial Prime Vendor Contract – North Island            3

Appendixes
     A. Audit Process                                          21
          Scope                                                21
          Methodology                                          22
     B. Prior Coverage                                         23
     C. FAR Guidance on Competition and Requirement Bundling   24
     D. Report Distribution                                    27


Management Comments
     Defense Logistics Agency                                  29
Background
    Spare Parts Audits. This report is one in a series involving prices paid for
    commercial and noncommercial spare parts. This report addresses bench-stock
    material and logistics support procured from Raytheon E-Systems Incorporated
    under the Industrial Prime Vendor (IPV) program. Table 1 shows the items
    included in bench-stock material and the Federal Supply Class (FSC).

          Table 1. Bench Stock Material and Federal Supply Class
                     Material                          FSC
              Gaskets and packing                   5330, 5331
                Nuts and washers                        5310
             Screws, bolts, and studs             5305, 5306, 5307
              Nails, pins, and rivets             5315, 5320, 5325


    Demonstration Program. The Defense Supply Center Philadelphia (DSCP)
    initiated the IPV program in July 1998 as a test program to explore innovative
    logistics solutions for providing maintenance, repair and overhaul facilities with
    spare parts. The conceptual goal of the IPV program was to improve logistics
    support to service depot maintenance facilities at lower costs by streamlining the
    logistics pipeline. A justification for other than full and open competition was
    approved and a limited number of site-specific contracts were awarded for proof
    of concept. The program was designed for a 5-year test period. During the 2-year
    contract base period, material management responsibility was expected to migrate
    from the Government to the contractor’s full responsibility within 3 years. As
    performance progressed on initial contracts, metrics would be gathered to assess
    the impact of total logistics costs and readiness posture at specific sites.

    DLA is maintaining its logistics support system concurrent with the new system
    as a backup logistics system. Once the new logistics systems have been fully
    tested and determined successful, performance metrics will be refined and the
    program will be converted to a fully competitive acquisition environment
    targeting consolidated requirements based on common missions and/or weapon
    system. At that time, the concurrent systems would become redundant and
    require functional adjustments. DSCP awarded a number of IPV contracts to
    various contractors to support Defense depots throughout the world. This report
    addresses only the Raytheon Naval Aviation Depot − North Island, (North
    Island), California, IPV contract. Additional audit reports will assess the IPV
    program at other sites.

    DSCP awarded the North Island IPV contract (SP0500-98-D-BP01) to Raytheon
    on July 8, 1998. The contract was valued at about $4 million annually, with
    approximately $750,000 in annual distribution (infrastructure) costs. Raytheon
    purchased bench stock to maintain stock bins at or near where depot maintenance


                                 1
    actions were performed. Raytheon negotiated direct vendor delivery contracts
    with various companies to supply items directly to North Island. In the event that
    Raytheon could not economically purchase an item, contract clauses authorized
    Raytheon to supply the material from DLA stock. Raytheon did not earn profit on
    materials supplied from DLA stock. The IPV program was designed to provide
    benefits for DoD and direct benefits to the warfighters. Table 2 shows the
    intended IPV program benefits.

                         Table 2. Intended IPV Program Benefits
                       Reduced                                          Increased
                Logistics response time                                Readiness
                Customer material costs                        Financial accountability
                     Transactions                                   Rapid response
                 Inventory investment                            Material availability
      Storage, handling, and transportation costs     Opportunities for infrastructure streamlining



    Section 912 Report. Section 912(c) of the FY 1998 National Defense
    Authorization Act directed the Secretary of Defense to submit to Congress an
    implementation plan to streamline acquisition organizations, workforce, and
    infrastructure. In response, the Secretary of Defense prepared a report to
    Congress, "Actions to Accelerate the Movement to the New Workforce Vision,"
    April 1, 1998. The report included a section that addressed prime vendor
    contracts.

                Greatly Expanded Prime Vendor and Virtual Prime Vendor. As a
                result of the revolutions in the marketplace - in terms of transportation,
                manufacturing, and technology - it is no longer necessary for DoD to
                manage supplies. What DoD needs to do is manage suppliers through
                programs such as Prime Vendor; and where Prime Vendor is not a
                commercial practice in a particular sector, create a Virtual Prime
                Vendor which accomplishes the same outcome through the use of
                technology. This initiative will reduce the number of personnel and the
                amount of infrastructure we need to support our warfighters. It will
                also improve delivery of products and services, but will require the
                acquisition of new skills by our existing workforce.

Objective
    The primary audit objective was to determine whether the Defense Supply Center
    Philadelphia industrial prime vendor program had demonstrated an effective shift
    to commercial, industrial-base resources as an integrated logistics solution to
    obtain bench-stock material and add value for its customers. See Appendix A for
    a discussion of the audit scope and methodology, and Appendix B for a summary
    of prior coverage related to the audit objectives.




                                                        2
Industrial Prime Vendor Contract – North Island
            The DSCP IPV contract with Raytheon had not demonstrated an effective
            shift to commercial, industrial-base resources as an integrated logistics
            solution to provide bench-stock material for the Naval Aviation Depot −
            North Island. This shift had not occurred because the DSCP IPV program
            at North Island:

            •   placed insufficient material on contract within reasonable cost goals,
                in fact, 64 percent (dollars) and 82 percent (line items) of the material
                supplied by Raytheon came from the DLA supply system;

            •   did not differentiate between units of issue, which caused erroneous
                pricing; and

            •   did not institute a solution that effectively reduced the DLA supply
                system infrastructure and depot operations costs.

            Other areas such as benefits from competition and participation by small
            businesses may not have been maximized in regard to the program. As a
            result, the IPV program at North Island had not achieved the desired goals
            and benefits. We calculated that the IPV program cost North Island an
            additional $287,852 or 14 percent more than conventional support for the
            last 6 months of CY 1999 when the program was fully operational. We
            also determined that because of the unit of issue problems, North Island
            was erroneously charged $572,302 from contract inception through March
            2000. Total related billings for the period were about $1.6 million. On
            July 25, 2000, Raytheon paid North Island $368,375 to compensate for
            erroneous charges.

Industrial-Base Resources
     Streamlining the Logistics Pipeline. The DSCP IPV contract with Raytheon had
     not demonstrated an effective shift to commercial, industrial-base resources as an
     integrated logistics solution to provide bench-stock material for North Island.
     This situation occurred primarily because Raytheon was unable to obtain bench-
     stock material as economically as DSCP. DSCP designed the IPV program to
     streamline the logistics pipeline by transferring procurement and logistics support
     requirements for bench stock material from DSCP to Raytheon. Raytheon was
     responsible for ordering, purchasing, receiving, stocking, and billing bench stock
     material. Raytheon’s purchasing departments and on-site employees at North
     Island accomplished these contract requirements. In fact, Raytheon hired
     previously employed North Island contract workers to place orders, receive
     material, and fill bins. The IPV concept called for Raytheon to serve as an
     integrator and establish contracts with manufacturers that would ship the parts
     directly to North Island (direct vendor delivery [DVD]). DSCP believed that
     Raytheon could supply parts more efficiently and effectively by taking advantage
     of the commercial supply chain as compared to the DLA supply system. DSCP
     touted the IPV program as a model for DoD procurement and logistics support.


                                  3
Figure 1 shows the DSCP purchasing model for the IPV program.




                   IPV Contract


                                       IPV                      IPV Customer
                                    Contractor                    Support at
    DSCP                 Contract
                                                                NADEP North
  Contracting                                       DVD Parts
                                                    Shipment        Island
    Officer

                                    Manufacturers


Figure 1. DSCP Model for the IPV program



Concept for Placing Material on IPV Contract at Economical Prices. The
basic concept for placing material on the IPV contract at economical prices was
that Raytheon’s unit prices for parts supplied through the commercial supply
chain needed to be within 80 percent of the DLA standard unit price (SUP). The
SUP is the price DLA charged its customers. The SUP was derived from the
mean acquisition unit cost (MAUC) or the actual price DLA paid for items and
included the cost recovery rate charged by the supply center responsible for
managing the item. The cost recovery rate recouped supply center operations
costs, depot costs, corporate and other miscellaneous costs. For example, if
DSCP purchased an item for $100 (the MAUC) and its cost recovery rate was
40 percent, the DLA customer price for the item was $140 (the SUP).

        Reasonable Cost Goal. Raytheon basically needed to obtain the item for
no more than 80 percent of the SUP for an item to be included on the IPV contract
within a reasonable cost goal. Raytheon added a 6 percent profit on all material
provided through the commercial supply chain and also charged a $750,000 fixed
amount for annual infrastructure costs. DSCP then added a 5.7 percent special
cost recovery rate for the IPV program. In theory, if sufficient items had been
included on the IPV contract, Raytheon’s profit and infrastructure costs, and the
DSCP surcharge, would have been offset by the 20 percent difference from the
DLA SUP. If the items had been included on contract at prices higher than 80
percent of the SUP, the IPV program would have cost more than if the items were
provided from the DLA supply system.

       Market Basket Contract Approach. DSCP included “market baskets”
or groups of items on the IPV contract. The market basket approach meant that
some items could be higher than 80 percent of the SUP while others were lower;
but cumulatively, the total costs did not exceed 80 percent of the SUP. Raytheon
submitted groups of items (with expected demand quantities) to DSCP for

                                           4
    approval. DSCP added items to the contract without regard to individual unit
    prices if the market baskets met the 80 percent criteria. Raytheon used the DLA
    supply systems for those items that were not procurable within the 80 percent
    SUP threshold or caused the market basket to exceed 80 percent without earning a
    profit.

    Available Part Compliance Rate. The IPV contract was also designed to
    increase the availability of parts. However, parts were readily available before the
    IPV program was instituted. North Island had a parts availability compliance rate
    of 98.3 percent in CY 1997 and 98.7 percent for the first 6 months of 1998 (before
    the IPV program). Raytheon had a 99.3 percent parts availability compliance rate
    from July 1999 (fully operational) through February 2000. However, the
    Raytheon compliance rate only related to about 20 percent of the bins. For
    example, in October 1999, there were 14,258 bins on the IPV contract at North
    Island. Raytheon supplied the material for only about 20 percent of the bins and
    107 of the Raytheon bins were empty. Consequently, the compliance rate for
    October 1999 was 96.2 percent. From July 1998 through June 1999, North Island
    and Raytheon were responsible for parts availability and the compliance rate was
    97.9 percent.

Material on the IPV Contract
    Placing Material on the IPV Contract. DSCP placed insufficient material on
    the IPV contract within reasonable cost goals for the program to be successful. In
    fact, 64 percent (dollars) and 82 percent (line items) of the material supplied by
    Raytheon came from the DLA supply system because the contractor could not
    meet cost goals established by DSCP for the IPV program. In addition, DSCP did
    not verify the integrity of market basket quantities, unit prices, and units of issue
    to ensure that the items priced in market baskets were correct. As a result, there
    were numerous cases of items on contract that were erroneously priced.




                                  5
Figure 2 shows that from July through December 1999, IPV commercial sales
(items the contractor was able to procure and supply DVD) were significantly less
than the value of the items still being supplied by the DLA supply system. Total
commercial sales were 36 percent of the total dollars while DLA sales (items
obtained from the DLA supply system) were 64 percent.


$1,400,000                                                                $1,339,185


$1,200,000



$1,000,000



 $800,000



 $600,000



 $400,000



 $200,000



       $0
             July   August   September    October   November   December      Total

                                    DLA        Commercial




Figure 2. Most IPV Sales (dollars) are from the DLA Supply System


Similarly, Figure 3 shows that the split between IPV contractor and DLA supply
system for material line items or transactions was even greater. Only 18 percent
of the IPV transactions represented commercial sales while 82 percent represented
DLA sales.




                                                6
12,000
                                                                                                    11,158


10,000



 8,000



 6,000



 4,000




                                                                          42




                                                                                                                 6
                                                                           6




                                                                                                              40
                           0




                                                                        2,
                                         51
                          24




                                                                                                          2,
           19




                                         1
                        2,




                                      2,
            8




                                                            51
         1,




                                                             2
 2,000




                                                                                            5
                                                          1,




                                                                                         05
                                                                                        1,
                                                                                  8
                                                                  0
                                                7




                                                                               47
                                                                 46
                               4




                                             59
                   1




                                                                                                6
                            35
                20




                                                                                             31
    0
         July          August      September          October         November        December        Total

                                                    DLA          Commercial




Figure 3. Most IPV Sales (transactions) are from the DLA Supply System


As long as Raytheon obtains most of its items from DLA stock (82 percent), the
IPV program cannot achieve its key goals of reducing the number of depot
transactions and the DLA supply system infrastructure.

IPV Program Costs. For the last 6 months of CY 1999, we calculated that the
IPV program cost North Island an additional $287,852 or 14 percent more when
compared to traditional DLA support. In fact, for the items that were procured
through the commercial supply chain, the price for those items actually equaled
87.4 percent of the DLA FY 1999 SUP because of problems with the market
basket analyses performed by DSCP. We calculated the additional program costs
using the same methodology used in business case analysis by DSCP to support
implementing the IPV program. For example, in July 1999, when the cost of
material supplied under the IVP program (Raytheon) was compared to the cost for
the same material supplied through the DLA supply system (North Island), the
IPV program cost North Island an additional $44,757.




                                     7
Figure 4, the July 1999 comparison, is an example of the methodology used to
determine additional costs or IPV program “loss” to North Island. The figure
shows that the IPV contractor provided only 201 items or about 10 percent from
commercial sources while 1,819 items were supplied from the Defense supply
system. This is the basic methodology used by DSCP and North Island to
evaluate the effectiveness of the program.

                  Raytheon                        North Island/DLA
 Material cost               $314,422
 Profit (.06)                   3,589   Material cost (SUP)      $322,999
 DLA (.057)                     6,846
                             _______    Infrastructure             35,000
                                                                 _______
 Subtotal                     324,857     Total                  $357,999
 Infrastructure                56,706
                             _______
                                        SAMMS = $254,613 (1,819 items)

 Subtotal                     381,563   Commercial = 59,809 (201 items)
 Oversight                     21,193   Commercial @ SUP price =
                             _______    $68,386
  Total                      $402,756                              87% SUP
                                                              Loss = $44,757


Figure 4. July 1999 Market Basket Comparison


Market Basket Problems. DSCP failed to verify the integrity of quantities listed
in the market baskets proposed by Raytheon. DSCP relied on planned quantities
to set item prices on contract to the 80 percent SUP criteria, but the actual usage
did not accurately reflect planned usage by North Island. For example, there were
5,161 commercial items priced on the North Island IPV contract as of May 2000.
The average price (for the 5,161 items) was actually less than 80 percent of the
DLA SUP (79.8 percent of the FY 1999 SUP and 72.8 of the FY 2000 SUP).
Therefore, DSCP believed the IPV program would result in lower costs.
However, there were problems with unit prices and units of issue in the market
baskets used to place items on contract. In addition, Raytheon billed North Island
for only 1,229 items valued at $1.3 million from July 1999 through March 2000.
We excluded four items because of questionable data. The remaining 1,225 items
were priced at 87.4 percent of the FY 1999 SUP and 78.1 percent in FY 2000
SUP. As a result, in CY 1999, IPV program costs were higher than expected.
DSCP needs to do periodic reviews to determine whether parts usage established
during contract pricing agrees with actual usage when using market baskets.

In March 2000, Raytheon submitted a new market basket of 1,000 items priced at
74.1 percent of the SUP. DSCP stated to North Island and DoD, Inspector
General, that the modification would help increase commercial sales and lower
the IPV management rate. We reviewed the group of items and determined that
the proposed prices were seriously flawed because of decimal point errors and
unit of issue problems. After making appropriate corrections, we calculated that

                                            8
the items were actually priced at 91 percent of the DLA FY 1999 SUP. As a
result, DSCP could only approve a group of 491 items that equaled 66.1 percent
of the FY 1999 SUP. The same errors were found after further reviews of
contract modification P00020, dated March 31, 2000. The 491 approved items
included unit of issue problems and significant pricing errors from one of the
vendors (decimal point) that favored DSCP. However, Raytheon was willing to
accept any monetary loss to get the items on contract. Pricing items incorrectly
only leads to further problems for the IPV program. DSCP needs to have
Raytheon correct pricing errors before a determination is made to include items
on the IPV contract. The program should also be evaluated on accurate data not
erroneous data that tends to show a more favorable light.
Changes in the DSCP Cost Recovery Rate for Bench-Stock Material. During
FY 1999, the DSCP cost recovery rate for bench-stock material ranged from 38.0
percent for gaskets and packing to 42.3 percent for nuts and washers and averaged
about 40 percent. When decisions were made to place items on the IPV contract,
DSCP compared the proposed prices from the IPV contractor to the DLA FY
1999 SUP or sell price, which included the cost for material and the applicable
cost recovery rate. However, in FY 2000, DSCP established a separate cost
recovery rate for bench-stock items. The new DSCP rate was significantly higher,
57.2 percent, than the DSCP overall cost recovery rate of 39.8 percent. The
FY 2001 cost recovery rate for bench stock was even higher, 74.9 percent, while
the overall DSCP cost recovery rate was 40.5 percent. The higher rates enabled
Raytheon to purchase items at higher prices and include them on the contract;
thereby, lowering the management rate and making the IPV program appear
successful. We reviewed the various cost elements of the bench-stock cost
recovery rates for FYs 2000 and 2001 and determined that the rates did not
accurately reflect the costs associated with DSCP managing bench-stock material.
In addition, the true IPV surcharge was understated.




                             9
Tables 3 and 4 show that if costs not directly associated with bench stock material
are removed, and if the IPV program was discontinued, the cost recovery rates for
bench stock material would be 45.3 for FY 2000 and 49.4 percent for FY 2001.
Table 4 shows IPV program sales at $38 million of total sales (about 13.4 percent)
with traditional sales at $245.83 million.

                 Table 3. DSCP FY 2000 Cost Recovery Rates
                                 (millions)

                                                                           Adjusted*
                                              Bench                    Bench Bench Stock
       Cost Elements             Overall      Stock           IPV      Stock     And IPV

  ICP operations                   $98.04     $ 30.90     $ 7.04        $30.90      $ 37.94
  Depot operations                 133.60       65.00       0.00         53.00        53.00
  Corporate                         27.09       12.53       0.00         12.50        12.50
  Material related                  44.51       16.32       0.00         16.32        16.32
  Other/inflation                    4.93       18.79      (5.89)         2.87         2.87

   Total costs                   $308.17     $143.54      $ 1.15       $115.59      $122.63

   Sales                         $776.60     $250.90      $20.00       $250.90      $270.90

   Cost Recovery Rates              39.7%       57.2%          5.7%      46.1%        45.3%

 *Includes Depot operations and other nonbench stock related adjustments.




                 Table 4. DSCP FY 2001 Cost Recovery Rates
                                (millions)

                                                                           Adjusted*
                                              Bench                    Bench Bench Stock
       Cost Elements            Overall       Stock            IPV     Stock     and IPV

  ICP operations                 $112.63       $ 38.94        $4.82    $ 38.94      $ 43.76
  Depot operations                110.00         57.26         0.00      57.26        57.26
  Corporate                       107.27         56.68         0.00      22.56        22.56
  Material related                 30.93         12.10         0.00      12.10        12.10
  Other/inflation                  12.74         19.18        (2.64)      4.49         4.65

   Total costs                   $373.57      $184.16         $2.18    $135.35      $140.33

   Sales                         $923.00      $245.83         $38.00   $245.83      $283.83

   Cost Recovery Rates              40.5%       74.9%          5.7%      55.1%        49.4%

 *Includes Defense Reutilization and Marketing Service and other nonbench stock adjustments.


                                                         10
IPV Program Breakeven Points. Using the 80 percent SUP criteria, we
compared IPV sales ranging from a low end of $1 million to a high end of
$6 million annually using two different DSCP cost recovery rates to determine
IPV program breakeven points when compared to the traditional DLA supply
system. As shown in tables 3 and 4, the DSCP cost recovery rate for bench-stock
material falls somewhere from 45.3 to 49.4 percent. For the comparison, we used
DSCP cost recovery rates of 45 and 50 percent and used 80 percent of the SUP as
the cost for items placed on the contract. Using 80 percent of the 45 and 50
percent cost recovery rates equates to placing items on the IPV contract at 116
and 120 percent of the DLA MAUC. If the DSCP cost recovery rate for bench
stock material is 45 percent, the IPV program will not breakeven until sales reach
about $5 million. If the DSCP cost recovery rate was 50 percent, the IPV
program could breakeven or better at 80 percent of SUP when sales reach about
$4 million.

Figure 5, using a cost recovery rate of 45 percent, shows a breakeven point at just
above $5 million. Figure 6, using a cost recovery rate of 50 percent, shows a
breakeven point at just before $4 million in commercial sales. Annual North
Island infrastructure costs totaling $420,000 were included in the DLA costs.
These North Island infrastructure costs basically represent the costs for contractor
personnel at North Island to manage the bench stock bins that transferred to the
IPV contractor.


                                       140


                                       120
    Program Costs (Percent of Sales)




                                       100


                                        80


                                        60


                                        40


                                        20


                                         0
                                             1   2             3            4              5   6
                                                     Benchstock Sales Dollars (millions)

                                                             DLA             IPV Program


Figure 5. IPV Program Costs Exceed DLA Supply System Costs Until Sales
Reach $5 Million (DSCP Cost Recovery Rate is 45 percent)




                                                        11
                                      140

                                      120
   Program Costs (Percent of Sales)




                                      100

                                      80

                                      60

                                      40

                                      20

                                       0
                                            1   2             3            4              5   6
                                                    Benchstock Sales Dollars (millions)

                                                               DLA             IPV Program




Figure 6. IPV Program Costs Exceed DLA Supply System Costs Until Sales
Almost Reach $4 Million (DSCP Cost Recovery Rate is 50 Percent)



We calculated that the commercial items cost Raytheon about 19.7 percent more
than the DLA FY 1999 MAUC and about 20.8 percent more than the FY 2000
MAUC on the IPV contract. When Raytheon’s 6 percent profit and 1.5 percent
award fee were added, the prices were 27.2 and 28.3 percent higher than DLA
FYs 1999 and 2000 prices for the same items. We believe that establishing a goal
for placing items on contract at some percentage higher than the MAUC would be
significantly more consistent for evaluating the program than using 80 percent of
the SUP.

DSCP needs to use an appropriate cost recovery rate for bench stock material in
the 45 to 50 percent range when decisions are made to include items on the
contract and for program evaluation purposes.

DSCP needs to establish metrics that compare the DLA MAUC with the IPV
contract costs and not include items when the cost exceeds 120 percent of the
MAUC.




                                                                               12
Accounting For Different Units of Issue
     The IPV program at North Island did not differentiate between units of issue
     which caused erroneous pricing when the items were included on the contract.
     We calculated that North Island was overcharged $395,352 for the period from
     July 1999 through March 2000. The total related billings for the period were
     $1.3 million. North Island was overcharged because neither DSCP nor Raytheon
     adequately verified units of issues when pricing items in market baskets. On
     July 25, 2000, Raytheon paid North Island $368,375 to partially cover the
     overcharged amount on invoices from July 1999 to March 2000. We also
     calculated that North Island was overcharged about $176,950 on the first three
     invoices submitted by Raytheon. The total amount billed on the first three
     invoices was $269,348. These invoices were difficult to reconcile but DSCP and
     Raytheon must settle on an appropriate figure and refund North Island for the full
     amount, including the DSCP surcharge.

     Table 5 provides a summary of the erroneous charges and refunds to North Island.

               Table 5. Summary of Erroneous Charges and Refunds to North Island
                                     Amount Overcharged             Amount Refunded
              Invoices         Contractor DSCP        Total  Contractor DSCP        Total
      Inception - June 1999     $167,408    $ 9,542 $176,950   $      0    $0       $     0
      July 1999 – March 2000     374,032    21,320    395,352    368,375    0       368,375
       Total                    $541,440   $30,862   $572,302   $368,375   $0      $368,375


     Units of Issue. In the DLA wholesale inventory system, some items were
     packaged in multiple units of issue, such as hundreds (HD). The common
     practice at DSCP was to solicit using the HD unit of issue, then convert any
     quotes received as each (EA) to HD. The conversion was required as some
     suppliers only supplied the item in the EA unit of issue, and indicated this on their
     quote. On the North Island contract, 35 items had contract pricing errors when
     the unit of issue was confused in the material bid and evaluation process.
     Raytheon’s suppliers quoted using their customary EA unit of issue, and in the
     evaluation process these items were reviewed as having been quoted to the DLA
     unit of issue (HD or package), when in fact the prices were submitted as each.

     Since the error occurred during the quoting process, and DSCP accepted a price in
     error, Raytheon technically did not overbill the Government. As a result, DSPC
     did not uncover billing errors because the Raytheon invoice cited the agreed upon
     contract price. The DSCP invoice analysis was designed to identify prices that
     did not comply with the contract schedule price. Since the prices complied with
     the contract schedule, they were not identified in the invoice validation process.
     Additionally, Raytheon had agreed to perform at the contract price for the items
     that had been accepted by DSCP.




                                    13
For example, DLA previously bought close tolerance screws (NSN 5305-01-133-
2195) in packages of 25 for $20.00 and sold them to North Island, individually,
for $1.26 EA including surcharge. Raytheon also purchased the part in packages
of 25 but quoted a price of $22.92 EA that was accepted by DSCP, not accounting
for the difference in unit of issue. As a result, North Island was paying
$22.92 each or 18 times more than the correct price of $1.26 each.

Table 6 shows the impact of erroneously pricing the close tolerance screws.

             Table 6. Impact of Erroneously Pricing Close Tolerance Screws
                                (NSN 5305-01-133-2195)

                     Quantity Unit of    Unit                   Profit      DSCP
    Description       Billed  Issue*     Cost     Total Cost (6 percent) (5.7 percent) Total Price

Raytheon billing      4,310     Each     $22.92    $98,785      $5,927       $5,969     $110,681

Corrected billing       172.4    25      $22.92     $ 3,951     $ 237        $ 239       $ 4,427

Amount overbilled                                  $94,834      $5,690       $5,730     $106,254

*Both DLA and Raytheon purchased this part in packages of 25.


DSCP commented that the prices for the problem items were submitted in June
1998. At that time DSCP pricing analysis did not screen prices that were too low
or unrealistic. As a result of the audit, DSCP has corrected its pricing analysis
procedures to flag low, as well as, high prices. Additionally, DSCP has reset the
pricing analysis records for these items to a unit of issue of EA. This is consistent
with industry pricing practices and customer usage.

DSCP further commented that Raytheon had also implemented an NSN data
management process. The process begins when the customer identifies the NSN,
through the solicitation review, and submission to DSCP. This process
effectively screens all items so this problem does not recur. Raytheon works with
the customer and DSCP to identify required baseline items. By screening site
customer databases, comparing DLA unit of issue, and performing reconciliation,
the right quantity and unit of issue are agreed to before submission to DSCP for
formal placement on the contract. Within this process, any item unit of issue that
can be broken into its lowest denominator is converted before being cited in
Raytheon’s request for quote to its suppliers (for example, 1 HD becomes
100 EA). This process translates the ‘Government’ unit of issue categorization
into a ‘commercial’ categorization that is compatible with industry convention.
These items are then highlighted in the pricing submission to DSCP and show the
commercial bid as well as the government data contained within FedLog. In this
way, DSCP can readily identify, and sort any necessary items that need translation
in the bid evaluation process.



                                                   14
              Actions taken by DSCP and Raytheon as a result of the audit should resolve the
              unit of issue problems that caused items to be erroneously priced.

  DLA Supply System Infrastructure
              IPV Program Impact on Supply System Infrastructure. The IPV program at
              North Island has failed to provide an adequate solution to reduce the DLA supply
              system infrastructure and depot operations costs. In fact, instead of reducing the
              DLA supply system infrastructure, the IPV program has actually expanded the
              DLA infrastructure because DSCP, in addition to procuring items on the IPV
              contract, also has to procure the same items for stock to support other non-IPV
              customers. While the DSCP demonstration program addressed the need for
              concurrent systems until proof of the success of direct reliance on industry, the
              ability of industry to effectively provide bench-stock material to all DLA
              customers may not be cost effective. Further, even if the demonstration program
              is successful at the Navy depots and Air Force logistics centers, the majority of
              the other DLA customers still need support.

              Figure 8 shows the impact of the IPV program on the DLA infrastructure, a sharp
              contrast to the DSCP purchasing model for the IPV program shown in Figure 1.



                                                                           Shipment to IPV                  Repeats
                                         DVD Contract                        Contractor
         1. IPV Contract                                                                                    for
                                                               Dealer                                       different
                                 IPV                                                         IPV Customer   IPV
                              Contractor                                                       Support at   contracts
                                              Contract
                                                                            Parts            NADEP North    providing
  DSCP                                                                      Shipment             Island     the same
Contracting                                 Parts
                                                                                                            parts
                                         Requirement     Manufacturers
 Officers
      2. Non-IPV Contract                                               Parts Shipment


                                                                           Shipments to non-IPV
                                Dealer                                          customers
                                              Parts Shipment

                  Contract                    Parts
                                              Shipment
                                                         Defense Distribution
                                                          Depots East/West
                             Manufacturers

              Figure 8. DLA Purchasing Model with IPV Program




                                                   15
Depot Operations Costs. As shown in tables 3 and 4, depot operations represent
the highest cost element relating to bench-stock, $53 million in FY 2000 and
$57.26 million in FY 2001. In theory, reducing the number of transactions at the
depot should eventually lead to lower depot operation costs, a key goal of the IPV
program. We obtained depot transaction data from the Defense Operations
Research and Resource Analysis center relating to bench stock material for
FY 1999 and the first three-quarters of FY 2000.

Figure 9 shows depot transactions for bench-stock material trending up in
FY 2000 (roughly 800,000 per quarter or about 3.2 million per year).




          900



          850



          800



          750



          700



          650
                 Q1      Q2         Q3    Q4       Q1       Q2        Q3



                              F Y 1999                     F Y 2000




Figure 9. Bench Stock Depot Transactions are Trending Up (Roughly
800,000 Per Quarter)


Figure 10 shows that 16,402 different DLA customers were involved in 5,677,738
bench stock material transactions in FY 1999 and FY 2000 (first 3 quarters). The
largest 6 DLA customers for bench-stock material represented only about
12 percent of the transactions (air logistics centers at Tinker, Warner Robbins, and
Hill Air Force Bases and Naval aviation depots at Cherry Point, Jacksonville, and
San Diego).




                                            16
              Sites 501 thru                       Top 6 Sites
                  16,402                          12% (663,109)
             26% (1,486,395)
                                                                    Sites 7 thru 50
                                                                   19% (1,091,870)




             Sites 151 thru 500                        Sites 51 thru 150
              23% (1,310,175)                          20% (1,126,189)




    Figure 10. 16,402 Different DLA Customers Requested Bench Stock
    Material (FY 1999 and FY 2000 (quarters 1-3)) (5,677,738 transactions)

    For the IPV program to be successful, industry must be able to provide the bulk of
    these transactions as effectively as the DLA supply system. Unfortunately, the
    IPV contractor at North Island was only able to provide a small percentage of the
    bench-stock material transactions (18 percent Figure 3). In other words, the IPV
    program addressed only 12 percent of the depot transactions with minimal
    success. Until a large portion of the other 5 million transactions are shifted to
    industry, the depots operating costs will only be slightly affected.

    DSCP needs to establish IPV program metrics for bench-stock material. The
    metrics must show a significant shift in the number of transactions supplied from
    the DLA depot system to industry, establish time frames to attain the metrics, and
    if unable to achieve the established metrics, discontinue the program.

    DSCP also needs to develop a plan, establish metrics and time frames, and
    demonstrate how its IPV contractors will support bench stock material for the
    bulk of its customers and transactions to continue the program.

Competition and Small Business
    Although only a demonstration program, the IPV program has not adequately
    addressed other areas such as the benefits of competition and participation by
    small businesses. In October 1983, Secretary of Defense (then Senator) William
    S. Cohen outlined four basic benefits to competitive procurement that still hold
    true after almost 20 years (Public Contract Law Journal, October 1983, Volume
    14, Number 1).




                                  17
              • Competition in contracting saves money. Studies have indicated that
                 between 15 and 50 percent can be saved through increased
                 competition.
              • Competition curbs cost growth. Competitive procurements have led
                 to improvements in system performance and on-schedule delivery
                 by contractors.
              • Competition may also promote significant innovative and technical
                changes. In some cases, competition serves as an incentive for
                firms to be more progressive in developing cost-reducing design
                changes and improvements in manufacturing technology in order to
                gain an advantage over their competitors. Increased product quality
                and reliability are potential benefits of competition, especially when
                performance and quality are included in the solicitation as
                production award criteria. A long-term benefit of competition is
                enhanced mobilization capacity and industry responsiveness.
              • Competition has an inherent appeal of "fair play." Competition
                 maintains integrity in the expenditure of public funds by ensuring
                 that Government contracts are awarded on the basis of merit rather
                 than that of favoritism.
   DSCP needs to determine what impact the IPV program will have on competition
   and determine the extent of competition obtained by the IPV contractor.

   Although bundling requirements was not an issue when the IPV contract was
   awarded, effective July 26, 2000, the Federal Acquisition Regulation provides
   detailed guidance on bundling requirements. Basically, acquisition bundling
   consolidates requirements for supplies or services previously performed under
   separate smaller contracts, into a solicitation for a single contract that is likely to
   be unsuitable for award to a small business concern for various reasons. See
   Appendix C for details. Raytheon used a core group of subcontractors to supply
   parts on the IPV contract. The core group of subcontractors used by Raytheon
   included Honeywell International (the largest supplier of IPV parts), PB Herndon,
   Tristar Aerospace, Texas International, Sterling Commerce, and LESCO, all of
   which are large businesses. We reviewed 1,112 different items bought on the
   December 1999 contract billing and found that 13 percent (138) of the items
   bought were previously supplied by 60 different small disadvantaged or woman
   owned businesses. Under the IPV program, these 60 businesses are now
   potentially denied the opportunity to supply this material to the Government,
   which could eventually shrink the size of the Defense industrial base.

   DSCP needs to determine the extent of participation by small business, small
   disadvantaged business, and women-owned small business concerns under the
   IPV program.

Summary
   The IPV program at North Island has been highly touted as a best commercial
   business practicean improved way to manage suppliers and not supplies. We
   remain skeptical about the role and the effectiveness of DLA as a manager of

                                                    18
    suppliers as opposed to a supply manager. Whether the IPV program is a viable
    commercial business practice that can be used by DLA to effectively provide
    better, faster, and cheaper support for bench stock material around the world,
    around the clock is not close to being demonstrated.

    We believe that DLA needs to take a hard look at this program and within the
    next 12 months determine whether the goals can be achieved.

Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Commander, Defense Supply Center
    Philadelphia:

            a. Perform periodic reviews to determine whether parts usage
    established during contract pricing, agrees with actual usage, when using
    market baskets.

          b. Instruct Raytheon to correct pricing errors on proposals before a
    determination is made to place items on contract.

            c. Use an appropriate cost recovery rate for bench-stock material in
    the 45 to 50 percent range when decisions are made to place items on
    contract and for program evaluation purposes.

            d. Establish metrics that compare the Defense Logistics Agency mean
    acquisition unit cost with industrial prime vendor contract costs and not
    place items on contract if costs exceed 120 percent of the mean acquisition
    unit cost.

           e. Obtain a full refund from Raytheon for overcharges and take steps
    to reimburse North Island for the full amount of the contract overbillings.

            f. Establish program metrics for bench-stock material that show a
    significant shift in the number of transactions supplied from its depot system
    to industry, establish time frames to attain the metrics, and if unable to
    achieve the established metrics, discontinue the program.

            g. Develop a plan, establish metrics and time frames, and
    demonstrate how industry will support bench stock material for the bulk of
    its customers and transactions to continue the program.

          h. Determine the impact the program will have on competition and
    monitor the extent of competition obtained.

           i. Determine the extent of participation by small business, small
    disadvantaged business, and women-owned small business concerns under
    the program.




                                19
Management Comments. The Defense Logistics Agency concurred with all
recommendations. Management stated that some of the analysis in the report was
incomplete, as it did not capture all the costs and benefits incurred by the Navy.
Items not considered included: improved fill rates, spot buy capabilities, reduced
inventory, improved responsiveness and reallocated resources. Management also
commented that using the mean acquisition unit cost plus 20 percent conflicted
with using 80 percent of the standard unit price at a 50 percent markup.
Management also commented that 2,309 of the 2,404 item prices submitted by
Raytheon had been accepted and that the commercially priced items for North
Island were in aggregate 62 percent of the FY 2000 standard unit price.
Management also commented that if established metrics cannot be met,
discontinuing the program should not be the only choice.

Audit Response. The Defense Logistics Agency comments are responsive.
Regarding the incompleteness of our analysis, we do not agree that the program
measurably increased fill rates at North Island, reduced inventory, or improved
responsiveness and allowed for reallocation resources. As stated in the report, the
bulk of the material supplied by Raytheon still came from the DLA supply
system. In regard to the reallocation of resources, contractor resources previously
procured by North Island were now included in the price of the program. Further,
the mean acquisition unit cost plus 20 percent and 80 percent of the standard unit
price with a 50 percent markup are the same. For example, if the mean
acquisition unit cost was $100 and a 20 percent markup was applied the amount
would be $120. Applying a 50 percent markup to the mean acquisition unit cost
of $100 would result in a standard unit price of $150 then applying an 80 percent
factor would also equal $120. In regard to the prices for 2,309 commercially
priced items, these represent new items placed on contract that had not been
reviewed by our office. Based on our analysis of previous claims about
commercial prices that favorably impact the program, we remain skeptical that the
commercially priced items for North Island were in aggregate 62 percent of the
FY 2000 standard unit price. The Defense Supply Center Philadelphia cost
recovery rate for bench stock in FY 2000 was 57.2 percent. Therefore, 62 percent
of the standard unit price would equate to 97.5 percent of the mean acquisition
unit cost ($100 x 1.572 = $157.2 x .62 = $97.5). We found no evidence during
the audit that the contractor was able to obtain sufficient bench stock material at
prices lower than the Defense supply centers to support the statement. If
established metrics cannot be met and if the program cannot demonstrate what
was intended there would appear to be limited alternatives other than terminating
the program.

2. We recommend that the Director, Defense Logistics Agency, evaluate the
   metrics and milestones for the industrial prime vendor program and
   within the next 12 months determine whether program goals can be
   achieved and whether the program should continue.

Management Comments. The Defense Logistics Agency concurred with the
recommendation.




                                            20
Appendix A. Audit Process

Scope
    Work Performed. We reviewed DLA procedures and support contract
    documentation issued by DSCP to Raytheon under IPV contract SPO500-98-D-
    BP01. Specifically, we reviewed contract billings from July 1999 through March
    2000. We reviewed a total of 4,248 line items for commercial benchstock items
    valued at $1.3 million. A total of 1,229 different NSNs were procured on the
    4,248 line items. We reviewed DLA cost recovery rates for FY 1999 and
    FY 2000. Our review focused on whether the IPV program, when fully
    operational, is beneficial to NADEP North Island and DoD as a whole.

    Limitations to Scope. The adequacy of the DLA management control program
    was addressed in Inspector General, DoD, Report No. 98-088, "Sole-Source
    Prices for Commercial Catalog and Noncommercial Spare Parts," therefore, we
    did not review it further.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Goals. In response to the GPRA, the Secretary of Defense annually
    establishes DoD-wide corporate level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following
    goals, subordinate performance goals, and performance measures:

        •   FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
            future by pursuing a focused modernization effort that maintains U.S.
            qualitative superiority in key warfighting capabilities. Transform the
            force by exploiting the Revolution in Military Affairs, and reengineer the
            Department to achieve a 21st century infrastructure. (00-DoD-2)

        •   FY 2001 Subordinate Performance Goal 2.3: Streamline the DoD
            infrastructure by redesigning the Department's support structure and
            pursuing business practice reforms. (00-DoD-2.3) FY 2001
            Performance Measure 2.3.1: Percentage of DoD Budget Spent on
            Infrastructure. (00-DoD-2.3.1)

        •   FY 2001 Subordinate Performance Goal 2.4: Meet combat forces'
            needs smarter and faster, with products and services that work better and
            cost less, by improving the efficiency of DoD's acquisition process. (00-
            DoD-2.4)




                                21
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

        •   Acquisition Functional Area. Objective: Foster Partnerships.
            Goal: Decrease paper transactions by 50% through electronic commerce
            and electronic data interchange. (ACQ-2.3)

        •    Logistics Functional Area. Objective: Develop a seamless logistics
            system. Goal: Improve the communication of logistics information
            (developing and implementing an integrated data environment to expand
            EDI, and enhance information exchange within DoD, with industry, other
            government agencies, and with allies. (LOG-2.2)

Methodology
    Use of Computer-Processed Data. We relied on computer-processed data from
    the Defense Supply Center Philadelphia and Raytheon to determine the audit
    scope. The computer-processed data were determined reliable based upon the
    significant number of contract items we reviewed and compared to the data output
    from DSCP. Although we did not perform a formal reliability assessment of the
    computer-processed data, we determined that the bin locations, quantities, order
    dates, and amounts generally agreed with the information in the computer-
    processed data. We did not find errors that would preclude use of the computer-
    processed data to meet the audit objectives or that would change the conclusions
    in the report.

    Audit Type, Dates, and Standards. We performed this program audit from July
    1999 through November 2000 in accordance with auditing standards issued by the
    Comptroller General of the United States, as implemented by the Inspector
    General, DoD.

    Contacts During the Audit. We visited or contacted individuals within the DoD
    and Raytheon. Further details are available on request.




                                               22
Appendix B. Prior Coverage
     During the last 5 years, the General Accounting Office has issued four audit
     reports and the Inspector General, DoD has issued seven audit reports discussing
     either logistics response time or prices for spare parts in the Acquisition Reform
     environment.

General Accounting Office
     General Accounting Office, Report No. GAO-01-22 (OSD Case No. 2080),
     “Defense Acquisitions: Price Trends for the Defense Logistics Agency’s Weapon
     Systems Parts,” November 2000

     General Accounting Office, Report No. NSIAD-00-30 (OSD Case No. 1920),
     “Opportunities Exist to Expand the Use of Defense Logistics Agency Best
     Practices," January 2000

     General Accounting Office, Report No. NSIAD-00-21 (OSD Case No. 1868),
     “Management of Repair Parts Common to More than one Military Service can be
     Improved,” October 1999

     General Accounting Office, Report No. NSIAD-99-90 (OSD Case No. 1808),
     “DoD Pricing of Commercial Items Needs Continued Emphasis,” June 1999

Inspector General, DoD
     Inspector General, DoD, Report No. D-2000-099, “Procurement of the Propeller
     Blade Heaters for the C-130 and P-3 Aircraft,” March 8, 2000

     Inspector General, DoD, Report No. D-2000-098, “Spare Parts and Logistics
     Support Procured on a Virtual Prime Vendor Contract,” March 8, 2000

     Inspector General, DoD, Report No. 99-217, “Sole-Source Commercial Spare
     Parts Procured on a Requirements Type Contract,” July 21, 1999

     Inspector General, DoD, Report No. 99-101, “Logistics Response Time for the
     Direct Vendor Delivery Process, Defense Supply Center, Columbus,” March 4,
     1999

     Inspector General, DoD, Report No. 99-026, “Commercial Spare Parts Purchased
     on a Corporate Contract,” October 30, 1998

     Inspector General, DoD, Report No. 98-088, “Sole-Source Prices for Commercial
     Catalog and Noncommercial Spare Parts,” March 11, 1998

     Inspector General, DoD, Report No. 98-064, “Commercial and Noncommercial
     Sole-Source Items Procured on Contract N000383-93-G-M111,” February 6,
     1998



                                  23
Appendix C. FAR Guidance on Competition and
            Requirement Bundling
   Competition. Guidance on competition requirements is found in FAR 6.101,
   "Policy":
             10 U.S.C 2304 and 41 U.S.C 253 require, with certain limited
             exceptions (see Subparts 6.2 and 6.3), that contracting officers promote
             and provide for full and open competition in soliciting offers and
             awarding Government contracts.
             Contracting officers shall provide for full and open competition through
             the use of the competitive procedure(s) contained in this subpart that
             are best suited to the circumstances of the contract action and consistent
             with the need to fulfill the Government's requirements efficiently (10
             U.S.C 2304 and 41 U.S.C 253).

   Requirement Bundling. The FAR defines and provides detailed requirements
   for acquisitions involving bundling (effective July 26, 2000). FAR 2.101,
   “Definitions,” defines bundling.

             “Bundling” means 
                  (1) Consolidating two or more requirements for supplies or
             services, previously provided or performed under separate smaller
             contracts, into a solicitation for a single contract that is likely to be
             unsuitable for award to a small business concern due to
                   (i) The diversity, size, or specialized nature of the elements of the
             performance specified;
                  (ii) The aggregate dollar value of the anticipated award;
                    (iii) The geographical dispersion of the contract performance
             sites; or
                    (iv) Any combination of the factors described in paragraphs
             (1)(i), (ii), and (iii) of this definition.
                 (2) “Separate smaller contract” as used in this definition, means a
             contract that has been performed by one or more small business
             concerns or that was suitable for award to one or more small business
             concerns.
                 (3) This definition does not apply to a contract that will be awarded
             and performed entirely outside of the United States.

   FAR Part 7Acquisition Planning, provides detailed requirements for
   acquisitions involving bundling.
             7.107 Additional requirements for acquisitions involving bundling.
                 (a) Bundling may provide substantial benefits to the Government.
             However, because of the potential impact on small business


                                                     24
participation, the head of the agency must conduct market research to
determine whether bundling is necessary and justified (15 U.S.C.
644(e)(2)). Market research may indicate that bundling is necessary
and justified if an agency would derive measurably substantial benefits
(see 10.001(a)(2)(iv) and (a)(3)(vi)).
    (b) Measurably substantial benefits may include, individually or in
any combination or aggregate, cost savings or price reduction, quality
improvements that will save time or improve or enhance performance
or efficiency, reduction in acquisition cycle times, better terms and
conditions, and any other benefits. The agency must quantify the
identified benefits and explain how their impact would be
measurably substantial. [emphasis added] Except as provided in
paragraph (d) of this section, the agency may determine bundling to be
necessary and justified if, as compared to the benefits that it would
derive from contracting to meet those requirements if not bundled, it
would derive measurably substantial benefits equivalent to
     (1) Ten percent of the estimated contract value (including
options) if the value is $75 million or less; or
      (2) Five percent of the estimated contract value (including
options) or $7.5 million, whichever is greater, if the value exceeds $75
million.
     (c) Without power of delegation, the service acquisition executive
for the military departments, the Under Secretary of Defense for
Acquisition, Technology and Logistics for the defense agencies, or the
Deputy Secretary or equivalent for the civilian agencies may determine
that bundling is necessary and justified when
     (1) The expected benefits do not meet the thresholds in
paragraphs (b)(1) and (b)(2) of this section but are critical to the
agency’s mission success; and
      (2) The acquisition strategy provides for maximum practicable
participation by small business concerns.
     (d) Reduction of administrative or personnel costs alone is not
sufficient justification for bundling unless the cost savings are expected
to be at least 10 percent of the estimated contract value (including
options) of the bundled requirements.
    (e) Substantial bundling is any bundling that results in a contract
with an average annual value of $10 million or more. When the
proposed acquisition strategy involves substantial bundling, the
acquisition strategy must
     (1) Identify the specific benefits anticipated to be derived from
bundling;
      (2) Include an assessment of the specific impediments to
participation by small business concerns as contractors that result from
bundling;
      (3) Specify actions designed to maximize small business
participation as contractors, including provisions that encourage small
business teaming;



                     25
                 (4) Specify actions designed to maximize small business
           participation as subcontractors (including suppliers) at any tier under
           the contract or contracts that may be awarded to meet the requirements;
           and
                 (5) Include a specific determination that the anticipated benefits
           of the proposed bundled contract justify its use.
                (f) The contracting officer must justify bundling in acquisition
           strategy documentation.
               (g) In assessing whether cost savings would be achieved through
           bundling, the contracting officer must consider the cost that has been
           charged or, where data is available, could be charged by small business
           concerns for the same or similar work.
        (h) The requirements of this section, except for paragraph (e), do not apply
if a cost comparison analysis will be performed in accordance with OMB Circular
A-76.




                                                 26
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
  Deputy Under Secretary of Defense (Logistics and Material Readiness)
  Director, Defense Procurement
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commanding Officer, Fleet Industrial Supply Center, San Diego
Commanding Officer, Naval Aviation Depot, Cherry Point
Commanding Officer, Naval Aviation Depot, North Island

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Logistics Agency




                                  27
Other Defense Organizations (cont’d)
  Commander, Defense Supply Center Columbus
  Commander, Defense Supply Center Philadelphia
  Commander, Defense Supply Center Richmond

Non-Defense Federal Organizations
Office of Management and Budget
Office of Federal Procurement Policy

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                                 28
Defense Logistics Agency Comments




                  29
30
31
32
33
34
35
36
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD, who
contributed to the report are listed below.

Paul J. Granetto
Terry L. McKinney
Henry F. Kleinknecht
Shawn L. James
Joseph P. Bucsko
Nicole A. Lukacs
